                                      News From
                            The Office of Inspector General
                         Corporation For National And Community Service




VISTA Defrauder Gets Prison Time

An identity thief and undocumented alien who defrauded the VISTA program of more $61,000 has
been sentenced to six months in prison and three years’ probation by a U.S. District Court judge
in El Paso, TX.

An OIG investigation found that Hilaria Gomez, who is in the United States illegally and therefore
ineligible to participate in the VISTA program, used another person’s identity to enroll and serve
multiple VISTA terms, during which she received more than $51,000 in living allowances and
other benefits. Gomez also used stolen identity documents, including data on two children, to
illegally receive more than $10,000 in VISTA childcare benefits.

Gomez, who had previously pled guilty to felony counts of making false statements, theft of public
monies and Federal Government program fraud, was sentenced in October 2010.

The case was investigated by OIG Special Agents William Ruley and Jeffrey Morales.
